<html>
<title> - WORKING FOR A FIRE SAFE AMERICA: EXAMINING UNITED STATES FIRE ADMINISTRATION PRIORITIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    WORKING FOR A FIRE SAFE AMERICA:
                        EXAMINING UNITED STATES
                     FIRE ADMINISTRATION PRIORITIES

=======================================================================


                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         THURSDAY, MAY 17, 2012

                               __________

                           Serial No. 112-85

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-725                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee
E. SCOTT RIGELL, Virginia
STEVEN M. PALAZZO, Mississippi
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                  HON. BENJAMIN QUAYLE, Arizona, Chair
LAMAR S. SMITH, Texas                DONNA F. EDWARDS, Maryland
JUDY BIGGERT, Illinois               FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              DANIEL LIPINSKI, Illinois
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
RANDY HULTGREN, Illinois             VACANCY
CHIP CRAVAACK, Minnesota             EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas
                            C O N T E N T S

                         Thursday, May 17, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Benjamin Quayle, Chairman, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     8
    Written Statement............................................     9

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     9
    Written Statement............................................    11

                               Witnesses:

Mr. Ernest Mitchell, Jr., Administrator, United States Fire 
  Administration
    Oral Statement...............................................    12
    Written Statement............................................    15

Dr. John R. Hall, Jr., Division Director, Fire Analysis and 
  Research, National Fire Protection
    Oral Statement...............................................    22
    Written Statement............................................    24

Chief Jim Critchley, Tucson Fire Department; President, Western 
  Fire Chiefs Association
    Oral Statement...............................................    34
    Written Statement............................................    36

Mr. Kevin O'Connor, Assistant to the General President for 
  Governmental Affairs, International Association of Fire 
  Fighters
    Oral Statement...............................................    40
    Written Statement............................................    42

Discussion.......................................................    47

             Appendix I: Answers to Post-Hearing Questions

Mr. Ernest Mitchell, Jr., Administrator, United States Fire 
  Administration.................................................    58

Dr. John R. Hall, Jr., Division Director, Fire Analysis and 
  Research, National Fire Protection Association.................    74

Chief Jim Critchley, Tucson Fire Department; President, Western 
  Fire Chiefs AssociationTruth in Testimony......................    76

Mr. Kevin O'Connor, Assistant to the General President for 
  Governmental Affairs, International Association of Fire 
  Fighters.......................................................    78


                    WORKING FOR A FIRE SAFE AMERICA:

                        EXAMINING UNITED STATES

                     FIRE ADMINISTRATION PRIORITIES

                              ----------                              


                         THURSDAY, MAY 17, 2012

                  House of Representatives,
         Subcommittee on Technology and Innovation,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Benjamin 
Quayle [Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] 74725.001

[GRAPHIC] [TIFF OMITTED] 74725.002

[GRAPHIC] [TIFF OMITTED] 74725.003

[GRAPHIC] [TIFF OMITTED] 74725.004

[GRAPHIC] [TIFF OMITTED] 74725.005

[GRAPHIC] [TIFF OMITTED] 74725.006

    Chairman Quayle. The Subcommittee on Technology and 
Innovation will come to order.
    Good morning. Welcome to today's hearing entitled ``Working 
for a Fire-Safe America: Examining United States Fire 
Administration Priorities.'' In front of you are packets 
containing the written testimony, biographies and Truth in 
Testimony disclosures for today's witnesses. I now recognize 
myself for five minutes for an opening statement.
    Today's hearing is being held to review the fire service 
community's priorities for the future of the United States Fire 
Administration, the USFA. The USFA was established following 
the 1973 report of the National Commission on Fire Prevention 
and Control, ``America Burning,'' which recommended the 
creation of a federal fire agency to provide support to state 
and local governments and private fire organizations in their 
efforts to reduce fire deaths, injuries, and property loss.
    The USFA has a substantial public safety mission. Although 
the country's fire death rate continues to decline, it is 
higher than more than half of the industrialized countries.
    The USFA prepares first responders and health care leaders 
to react to hazard and terrorism emergencies. It supports the 
efforts of state and local governments by providing training 
for first responders, educational programs and targeted 
outreach for communities, and conducting and coordinating the 
research and development of technologies for the fire service. 
The USFA also assists with data collection, analysis, and the 
dissemination of best practices for the Nation's fire 
prevention and control, and emergency medical services 
activities.
    In recent years, there has been an escalation of severe 
wildfires resulting in home and property loss. This can be 
attributed to expanding development in wildland areas, which 
include an abundance of burnable brush and trees. 2011 was an 
exceptional year for wildfires in the United States, and major 
blazes affected my home State of Arizona. In late May 2011, the 
Wallow Fire raced across eastern Arizona, forcing the 
evacuation of thousands of residents and burning more than 
469,000 acres, making it the largest in Arizona's history. The 
fire is believed to have started after a campfire blew out of 
control and spread quickly due to dry weather and fierce winds. 
Over 4,000 firefighters were assigned to the Wallow Fire.
    Currently, there are hundreds of firefighters working to 
contain at least four blazes in central and eastern Arizona. 
This represents just a fraction of the thousands of first 
responders and firefighters who risk their lives each and every 
day battling fires across the country. The USFA supports these 
individuals. They don't take their responsibilities lightly, 
and I as an authorizer of the USFA, neither do I.
    The testimony of our witnesses this morning should help the 
members of the Subcommittee to understand the priorities of the 
USFA, in order to better enable the USFA's continued efforts to 
reduce fire deaths, injuries, and property loss. We thank our 
witnesses for being here today and we look forward to your 
testimony.
    [The prepared statement of Mr. Quayle follows:]

         Prepared Statement of Subcommitte Chairman Dan Quayle
    Good Morning. I would like to welcome everyone to today's hearing 
reviewing the fire service community's priorities for the future of the 
United States Fire Administration (USFA).
    The USFA was established following the 1973 report of the National 
Commission on Fire Prevention and Control, America Burning, which 
recommended the creation of a federal fire agency to provide support to 
state and local governments and private fire organizations in their 
efforts to reduce fire deaths, injuries, and property loss.
    The USFA has a substantial public safety mission. Although the 
country's fire death rate continues to decline, it is higher than more 
than half of the industrialized countries.
    The USFA prepares first responders and health care leaders to react 
to hazard and terrorism emergencies. It supports the efforts of state 
and local governments by providing training for first responders, 
educational programs and targeted outreach for communities, and 
conducting and coordinating the research and development of 
technologies for the fire service. The USFA also assists with data 
collection, analysis, and the dissemination of best practices for the 
nation's fire prevention and control, and emergency medical services 
activities.
    In recent years, there has been an escalation of severe wildfires 
resulting in home and property loss. This can be attributed to 
expanding development in wildland areas--which include an abundance of 
burnable brush and trees. 2011 was an exceptional year for wildfires in 
the United States, and major blazes affected my home state of Arizona. 
In late May 2011, the Wallow Fire raced across eastern Arizona, forcing 
the evacuation of thousands of residents and burning more than 469,000 
acres, making it the largest in Arizona's history. The fire is believed 
to have started after a campfire blew out of control and spread quickly 
due to dry weather and fierce winds.
    Over 4,000 firefighters were assigned to the Wallow Fire. 
Currently, there are hundreds of firefighters working to contain at 
least four blazes in central and eastern Arizona. This represents just 
a fraction of the thousands of first responders and firefighters who 
risk their lives each and every day battling fires across the country. 
The USFA supports these individuals. They don't take their 
responsibilities lightly, and as an authorizer of the USFA, neither do 
I.
    The testimony of our witnesses this morning should help the members 
of the Subcommittee to understand the priorities of the USFA, in order 
to better enable the USFA's continued efforts to reduce fire deaths, 
injuries, and property loss. We thank our witnesses for being here 
today and we look forward to your testimony.

    Chairman Quayle. I now recognize the gentlelady from 
Maryland, the Ranking Member of the Subcommittee, Ms. Edwards, 
for her opening statement.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you for 
calling this morning's hearing to examine the activities and 
priorities of the United States Fire Administration. I am very 
pleased to welcome Chief Mitchell and our other witnesses here 
today so we can hear more about his vision for the 
Administration. I am particularly pleased to welcome my good 
friend Kevin O'Connor as well as our other witnesses, and I 
want to thank you for taking the time from your schedules to be 
with us.
    The Fire Administration was created in 1974 with the goal 
of reducing the number of fire-related deaths by half from a 
staggering 12,000 per year. Through the good work of the Fire 
Administration and our first responders, we met this goal in 
1988. The number of fire-related deaths continues to decline 
but, unfortunately, our country's fire-related death rate is 
still one of the highest in the industrialized world. And it is 
estimated that in 2009, fire cost the United States over $331 
billion in economic and human losses. Chairman Quayle just 
spoke about the loss in his own state.
    The Fire Administration continues to play a central role in 
reducing the impacts of fire and making our communities safer. 
It is responsible for improving the ability of fire departments 
around the country to respond to fires safely and effectively 
through research and firefighter training and for increasing 
fire prevention and preparedness through public education and 
awareness activities.
    Certainly, fires are still a major problem in our country 
and the Fire Administration's continued leadership in the area 
is critical. However, we can't ignore the fact that our 
firefighters are not just fighting fires anymore. On any given 
day, our firefighters are rushing to the scene in response to 
over 72,000 calls that range in scope from a house fire to a 
car crash to a hazardous material spill to a medical emergency. 
The truth is that our firefighters are our first responders in 
all types of emergencies, including terrorist attacks and 
natural disasters, and the range of training and education they 
need to be successful must expand and evolve to reflect this 
reality.
    As part of the Fire Administration's last reauthorization 
in 2008, we emphasized the need to advance training in, for 
example, emergency medical services and hazardous material 
response. I will be interested in hearing today about the 
status of those advances and learning from our witnesses 
whether the Fire Administration's training courses are in fact 
meeting the expanded all-hazards needs of today's fire service.
    I am also interested in hearing about the current state of 
fire-related research, any emerging research areas or existing 
gaps, and how the Fire Administration is contributing to these 
efforts. I would also like to learn more about how the Fire 
Administration prioritizes its research investments and how it 
coordinates its research activities with other federal entities 
engaged in fire-related research, including the National 
Institute of Standards and Technology and the Science and 
Technology Directorate within the Department of Homeland 
Security.
    Most importantly, however, I am interested in hearing 
recommendations or suggestions about what ought to be included 
in the next Fire Administration reauthorization bill. As you 
are aware, the current authorization for the Fire 
Administration expires in just over four months. I am pleased 
that we are holding this hearing today and think it is an 
important first step, and I sincerely hope that the decision to 
call this hearing is an indication that there are plans to 
draft and move a reauthorization bill through this Committee in 
the coming weeks. I hope the Chairman will be able to provide 
some insight into these plans this morning.
    And as you may be aware, our colleagues in the Senate 
passed a Fire Administration reauthorization bill through the 
Committee on Homeland Security and Governmental Affairs just 
yesterday. I believe we also have an obligation and an 
opportunity to ensure that the Fire Administration's authority 
continues uninterrupted, and I look forward to working with the 
Chairman towards that end.
    Again, Mr. Chairman, thank you for holding this important 
hearing. The Fire Administration plays an essential role in 
ensuring that our firefighters, who are so critical to the 
safety and resiliency of our Nation, have the tools they need 
to protect us and keep us out of harm's way. I am looking 
forward to hearing from our witnesses about the tools Congress 
can provide the Fire Administration that will allow them to 
effectively assist fire departments all across the country.
    And I yield the balance of my time.
    [The prepared statement of Ms. Edwards follows:]

   Prepared Statement of Subcommittee Ranking Member Donna F. Edwards
    Mr. Chairman, thank you for calling this morning's hearing to 
examine the activities and priorities of the United States Fire 
Administration. I'm very pleased to welcome Chief Mitchell here today 
so we can hear more about his vision for the Administration. The 
position of Administrator was vacant for far too long, and we're 
delighted to finally have you on board and at the helm. I'd also like 
to thank our other witnesses for taking time out of their schedules to 
be here today and share their critical insight with us.
    The Fire Administration was created in 1974 with the goal of 
reducing the number of fire-related deaths by half from a staggering 
12,000 per year. Through the good work of the Fire Administration and 
our first responders, we met this goal in 1988. The number of fire-
related deaths continues to decline but, unfortunately, our country's 
fire-related death rate is still one of the highest in the 
industrialized world. And it is estimated that, in 2009, fire cost the 
United States over $331 billion dollars in economic and human losses.
    The Fire Administration continues to play a central role in 
reducing the impacts of fire and making our communities safer. It is 
responsible for improving the ability of fire departments around the 
country to respond to fires safely and effectively through research and 
firefighter training and for increasing fire prevention and 
preparedness through public education and awareness activities.
    Certainly, fires are still a major problem in our country and the 
Fire Administration's continued leadership in this area is critical. 
However, we can't ignore the fact that our firefighters are not just 
fighting fires anymore. On any given day, our firefighters are rushing 
to the scene in response to over 72,000 calls that range in scope from 
a house fire to a car crash to a hazardous material spill to a medical 
emergency. The truth is that our firefighters are our first responders 
in all types of emergencies, including terrorist attacks and natural 
disasters, and the range of training and education they need to be 
successful must expand and evolve to reflect this reality.
    As part of the Fire Administration's last reauthorization in 2008, 
we emphasized the need to advance training in, for example, emergency 
medical services and hazardous material response. I'm interested to 
hear today about the status of those advances and learn from our 
witnesses whether the Fire Administration's training courses are in 
fact meeting the expanded all-hazards needs of today's fire service.
    I'm also interested in hearing about the current state of fire-
related research, any emerging research areas or existing gaps, and how 
the Fire Administration is contributing to these efforts. I would also 
like to learn more about how the Fire Administration prioritizes its 
research investments and how it coordinates its research activities 
with other Federal entities engaged in fire-related research, including 
the National Institute of Standards and Technology and the Science and 
Technology Directorate within the Department of Homeland Security.
    Most importantly, however, I am interested in hearing 
recommendations or suggestions about what ought to be included in the 
next Fire Administration reauthorization bill. As you are aware, the 
current authorization for the Fire Administration expires in just over 
four months. I am pleased that we are holding this hearing today and 
think that it is an important first step. I sincerely hope that the 
decision to call this hearing is an indication that there are plans to 
draft and move a reauthorization bill through this Committee in the 
coming weeks. I hope that the Chairman will be able to provide some 
insight into these plans this morning.
    As you may be aware, our colleagues on the Senate passed a Fire 
Administration reauthorization bill through the Committee on Homeland 
Security and Governmental Affairs yesterday. I believe we also have an 
obligation and an opportunity to ensure that the Fire Administration's 
authority continues uninterrupted and I look forward to working with 
the Chairman towards that end.
    Again, Mr. Chairman, thank you for holding this important hearing. 
The Fire Administration plays an essential role in ensuring that our 
firefighters--who are so critical to the safety and resiliency of our 
Nation--have the tools they need to protect us and keep us out of 
harm's way. I'm looking forward to hearing from our witnesses about the 
``tools'' Congress can provide the Fire Administration that will allow 
them to effectively assist fire departments across the country.

    I yield back the balance of my time.

    Chairman Quayle. Thank you, Ms. Edwards.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witnesses, and 
then we will proceed to hear from each of them in order.
    Our first witness is Chief Ernest Mitchell, Jr., an 
Assistant Administrator at the Federal Emergency Management 
Agency and the United States Fire Administrator in charge of 
the United States Fire Administration at the Department of 
Homeland Security. Next, we will hear from Dr. John Hall, Jr., 
who is the Division Director of Fire Analysis and Research at 
the National Fire Protection Association. Dr. Hall has been 
active in fire analysis and fire research for nearly 35 years. 
Our third witness is Chief Jim Critchley. Chief Critchley 
represents the Tucson Fire Department in my home State of 
Arizona and also currently serves as the President of the 
Western Fire Chiefs Association. Our final witness is Mr. Kevin 
O'Connor, Assistant to the General President for the 
International Association of Fire Fighters.
    Thank you again to our witnesses for being here today. As 
our witnesses should know, spoken testimony is limited to five 
minutes each. After all witnesses have spoken, members of the 
Committee will have five minutes each to ask questions.
    I now recognize our first witness, the United States Fire 
Administrator, Ernest Mitchell.

 STATEMENT OF MR. ERNEST MITCHELL, JR., ADMINISTRATOR, UNITED 
                   STATES FIRE ADMINISTRATION

    Chief Mitchell. Good morning, Chairman Quayle, Ranking 
Member Edwards and distinguished members of the Committee. My 
name is Ernest Mitchell, Jr. I am an Assistant Administrator at 
the Federal Emergency Management Agency and the United States 
Fire Administrator in charge of the United States Fire 
Administration at the Department of Homeland Security. It is 
indeed an honor to appear before you today to discuss the U.S. 
Fire Administration.
    The Fire Administration is committed to providing national 
leadership to foster a solid foundation for our fire and 
emergency services stakeholders and prevention, preparedness 
and response. In my testimony today, I will share an overview 
of the Fire Administration's core functions, major priorities 
and present activities and goals.
    Despite making progress over time, fire losses in the 
United States have been higher than in most of the 
industrialized world. This has held true in both fire deaths 
and dollar loss rates. Thousands of Americans die each year, 
and thousands more are injured. Property losses reach billions 
of dollars. Average annual fire losses in the United States 
greatly exceed those from floods, hurricanes, tornadoes, 
earthquakes and other natural disasters combined in our 
country.
    The Fire Administration is a national leader in providing 
fire safety and prevention programs to help decrease tragic 
losses. We also lead the way in preparing communities to 
respond to fires and other hazards in line with FEMA's whole 
community approach to emergency management. We are supporting 
the efforts of local communities to reduce the number of fires 
and fire deaths, and champion federal fire prevention and 
control efforts and coordinates information about fire programs 
throughout the country.
    There are four traditional stars of the Fire Administration 
and one relatively new or budding star that we have initiated 
more recently. One is data collection. The National Fire Data 
Center administers a national system for collecting, analyzing 
and disseminating data and information on fire and other 
emergency incidents to state and local governments and the fire 
communities.
    Two is through public education and awareness. Through 
partnerships and special initiatives, the Fire Administration 
involves the fire service, the media, other federal agencies 
and safety interest groups, and the development and delivery of 
fire safety awareness and education programs.
    Three is training. The National Fire Academy offers 
educational opportunities for the advanced professional 
development of the midlevel and senior fire and emergency 
medical services officers and allied professionals involved in 
fire prevention and life safety activities.
    Four is research and technology. Through research, testing 
and evaluation, the Fire Administration works with public and 
private entities to promote and improve fire and life safety. 
Research and special studies are conducted on fire detection, 
suppression and notification systems as well as issues related 
to firefighter and emergency responder health and safety.
    Five, and the more recent, is technical assistance and 
response. It is a recent initiative for the Fire Administration 
in developing a national firefighters deployment strategy. The 
mission's purpose is to establish an overall multidisciplinary 
response and recovery support mechanism for FEMA by 
establishing a structured approach to engaging and enhancing 
access to the Nation's structural fire and emergency medical 
services skill sets, thereby expanding the capacity for 
responding and providing faster, coordinated efforts to contain 
and minimize losses of life and property during disasters.
    Within the scope of these efforts, it is essential that we 
work on multiple levels and with a wide variety of partners. We 
engage governmental and private stakeholders and partners in 
evaluating programs that will address the emerging fire, 
emergency medical, and disaster response needs.
    One example is our collaboration with the National Fire 
Protection Association on the Home Fire Sprinkler Coalition and 
the mission of that coalition is to inform consumers about 
lifesaving benefits of installing home fire sprinkler systems.
    The more recent or emerging star has been utilized already 
at this point to respond to disasters and has resulted in some 
success. We provided technical expertise and assistance during 
the development of all-hazard management teams across the 
country. We have responded to and demonstrated effectiveness in 
the 2011 flooding in Colorado, Alabama, Georgia, and during 
this April's tornadoes in Texas. Graduates of our highly sought 
after programs have contributed to and participated in these 
events.
    Given the dynamics of our times, the Fire Administration 
has identified five broad goals as a framework to provide 
national leadership on fire safety issues. We will continue to 
pursue these goals through the existing programs while 
evaluating issues and instituting new initiatives relevant to 
our current and future operating climate.
    Thank you, Mr. Chairman, for giving me this opportunity to 
appear before you today. Your continued support is greatly 
appreciated. I will be glad to answer any questions you might 
have.
    [The prepared statement of Chief Mitchell follows:]
    [GRAPHIC] [TIFF OMITTED] 74725.007
    
    [GRAPHIC] [TIFF OMITTED] 74725.008
    
    [GRAPHIC] [TIFF OMITTED] 74725.009
    
    [GRAPHIC] [TIFF OMITTED] 74725.010
    
    [GRAPHIC] [TIFF OMITTED] 74725.011
    
    [GRAPHIC] [TIFF OMITTED] 74725.012
    
    [GRAPHIC] [TIFF OMITTED] 74725.013
    
    Chairman Quayle. Thank you very much, Administrator 
Mitchell.
    I now recognize Dr. Hall to present his testimony.

     STATEMENT OF DR. JOHN R. HALL, JR.,DIVISION DIRECTOR,

                  FIRE ANALYSIS AND RESEARCH,

              NATIONAL FIRE PROTECTION ASSOCIATION

    Dr. Hall. Mr. Chairman, Members of Congress, my name is 
John Hall and I am here on behalf of the National Fire 
Protection Association to communicate our very strong support 
for the reauthorization of the U.S. Fire Administration.
    Next year marks the 40th anniversary of ``America 
Burning.'' Of the 90 recommendations in that report, the first 
was for establishment of a U.S. Fire Administration ``to 
provide a national focus for the Nation's fire problem.'' The 
report also identified tasks appropriate to the federal role in 
what would continue to be primarily a local responsibility: 
``technical and educational assistance to state and local 
governments, collecting and analyzing fire information, 
conducting research and development in certain areas, and 
providing financial assistance when adequate fire protection 
lies beyond a community's means.'' The USFA has maintained this 
mandated focus throughout its existence.
    The report also set out ambitious goals saying ``a 
reduction of 50 percent in deaths, injuries and property losses 
is quite possible within the next generation.'' How has America 
done on this goal? Civilian fire deaths declined by about 60 
percent. Firefighter on-duty fatalities declined by half, 
civilian fire injuries by about 40 percent, firefighters 
injuries by about a third, and direct property damage adjusted 
for inflation by about one-quarter. Even so, we still have some 
of the highest fire loss rates in the developed world. We know 
how far we have come but we also know how much better we can do 
because we see greater safety in countries like us. And thanks 
to the National Fire Incident Reporting System, NFIRS, used 
within the NFPA survey, we have a greater ability to target 
problems and to design and evaluate programs than any other 
country in the world.
    In the years since the USFA was founded, the fire service 
has transformed itself into an all-hazard emergency response 
force. Reported fires have declined by more than half since 
1980. However, hazardous material responses have more than 
doubled, and medical aid calls have more than tripled.
    Imagine a gasoline tank truck rolling over on a highway in 
a small community. The truck was built and loaded in other 
states and crashed on an interstate built and maintained by the 
Federal Government. The fire department will be expected to 
contain the spill and clean up in accordance with state and 
national environmental regulations using training and personal 
equipment in compliance with national consensus standards. It 
is far from easy to find a local responsibility in such an 
incident. Now add in natural disasters, terrorist attacks, and 
fire scenarios unheard of two decades ago such as a burning 
building with a roof covered with photovoltaic solar power 
cells.
    We have asked our fire service to perform more varied tasks 
at more varied emergencies with more rules whenever something 
goes wrong. They have responded to every challenge and 
everything we have asked of them, but it takes a nation to save 
a village. They need our help. For nearly 40 years, the USFA 
has been there.
    Recent surveys of fire service needs conducted by NFPA in 
cooperation with the USFA have found the following. By 
comparison with national standards, the fire service has 
extensive needs for every type of resource. Fire departments 
serving the smallest communities are most likely to have needs. 
Although the needs are still great, there has been great 
progress. The Assistance to Firefighters and SAFER grant 
programs have been well targeted to real needs and collectively 
effective in reducing the needs they targeted.
    ``America Burning'' identified research as a priority. The 
USFA has filled research gaps and complemented research 
partners when appropriate. Some major current or recent 
projects the USFA has led or supported include the following: 
the next generation of home fire alarms, the next generation of 
firefighters personal protective clothing, safety in the 
wildland-urban interface, and decision support tools for 
dealing with unwanted alarms.
    NFPA salutes Chief Ernie Mitchell, newly confirmed Fire 
Administrator and latest in a distinguished line of leaders who 
have headed the USFA. We look forward to working with him.
    So to sum up, NFPA urges you to reauthorize the USFA. We 
urge you to provide requested funding for the USFA, its 
research program, the academy's training program, the grants 
programs, and NFIRS. The USFA does great work. They have made a 
great difference and they can and will do more, all in keeping 
with the original vision of an agency that would provide a 
national focus on fire through effective actions appropriate to 
a federal role.
    Thank you very much for the opportunity to speak with on 
behalf of NFPA, and like Chief Mitchell, I will be happy to 
answer your questions.
    [The prepared statement of Dr. Hall follows:]
    [GRAPHIC] [TIFF OMITTED] 74725.014
    
    [GRAPHIC] [TIFF OMITTED] 74725.015
    
    [GRAPHIC] [TIFF OMITTED] 74725.016
    
    [GRAPHIC] [TIFF OMITTED] 74725.017
    
    [GRAPHIC] [TIFF OMITTED] 74725.018
    
    [GRAPHIC] [TIFF OMITTED] 74725.019
    
    [GRAPHIC] [TIFF OMITTED] 74725.020
    
    [GRAPHIC] [TIFF OMITTED] 74725.021
    
    [GRAPHIC] [TIFF OMITTED] 74725.022
    
    [GRAPHIC] [TIFF OMITTED] 74725.023
    
    Chairman Quayle. Thank you, Dr. Hall.
    I now recognize Chief Critchley for five minutes to present 
his testimony.

               STATEMENT OF CHIEF JIM CRITCHLEY,

             TUCSON FIRE DEPARTMENT, AND PRESIDENT,

                WESTERN FIRE CHIEFS ASSOCIATION

    Chief Critchley. Good morning, Chairman Quayle and Ranking 
Member Edwards. I am Chief Critchley of the Tucson Fire 
Department and the President of the Western Fire Chiefs 
Association. I am also a member of the International 
Association of Fire Chiefs. I thank the Committee for the 
opportunity to testify about the vital work that the U.S. Fire 
Administration does for America's fire and emergency medical 
service.
    It is important to recognize the major accomplishments that 
have taken place since the USFA was created in the 1970s. In 
1978, 172 firefighters died in the line of duty. In 2011, we 
had 83 firefighters, a decline of more than 50 percent. In 
1978, we have seen the number of civilian fire deaths also drop 
over 50 percent to a little over 3,000 in 2010. The United 
States Fire Administration has played a major role in these 
accomplishments through fire service training, public 
education, and research.
    As a local chief, I would like to especially emphasize the 
importance of the National Fire Academy, which used online 
learning, train-the-trainer programs, on-campus classes, and 
other educational tools to train more than half a million 
responders in 2007 through 2011. I am proud to be one of the 
more than 6,000 Arizonans who have completed the NFA classes 
during this time period.
    A highlight of NFA's curriculum is the executive fire 
officer program. This program is a gold standard for developing 
transformative fire officers ready to deal with the Nation's 
future challenges. As a local fire service instructor, the NFA 
provides educational material based on national best practices 
to help me train the next generation of fire service leaders. 
This common training provides interoperability at the incident 
scene of many national disasters.
    The USFA also provides excellent data through the National 
Fire Data Center and the National Fire Incident Reporting 
System. The NFIRS allows local fire departments to report 
incidents in their area and identify national trends. For 
example, I used the USFA report to compare their statistical 
data in the incidents that I have in Tucson. This capability 
allows me to prepare for the future threats to my citizens.
    The USFA's budget already has been reduced 25 percent over 
the past decade. The fiscal year 2013 Department of Homeland 
Security appropriations bill would cut the USFA budget by an 
additional 3.5 percent. These proposed cuts will reduce classes 
at the NFA, eliminate many important prevention programs. It 
will also cancel the final stages of the NFIRS modernization 
effort.
    My organizations urge Congress to restore the funding to 
USFA. The fiscal year 2011 budget of only $45 million is not a 
large federal spending program. However, the agency plays an 
effective role in the inherently governmental function of 
protecting the American public.
    We also would like to express the support for the efforts 
to clarify that the USFA should be the lead agency of non-
wildland fire incidents in the Emergency Support Function #4, 
the firefighting annex. USFA and the U.S. Forest Service 
currently have a memorandum of understanding which allows the 
USFA to act as a support agency for ESF 4. Local fire 
departments work well with the Forest Service in coordinating 
ESF 4 for wildland fires. However, based on its relationship 
with the Nation's fire and emergency services, we think that 
the MoU should continue with the USFA playing a stronger and 
primary role in structural events, terrorist attacks and non-
wildland fire incidents.
    In addition, we support the establishment of teams of 
firefighters that can quickly deploy in the event of a major 
all-hazards disaster. As we witnessed in Arizona last year, 
local fire departments are the first on scene and the last to 
leave the incident. These support teams can provide a major 
benefit to the fire chiefs by helping the incident management 
recovery activities and working with state, tribal, and local 
agencies.
    The current authorization for the USFA expires on September 
30th. In the Senate, Senators Joe Lieberman and Susan Collins 
have introduced markup S. 2218. This bill would authorize 
funding for the USFA through fiscal year 2017. On behalf of the 
leadership of the Nation's fire and EMS service, I ask the 
Committee to consider companion legislation this year.
    I would like to thank this Committee for being a continued 
supporter of the Nation's fire service over the years. We have 
made major progress in reducing the tragedy of fire loss in the 
past 30 years. However, we have much work to do.
    Thank you for holding this hearing and I look forward to 
answering any of your questions. Thank you.
    [The prepared statement of Chief Critchley follows:]
    [GRAPHIC] [TIFF OMITTED] 74725.024
    
    [GRAPHIC] [TIFF OMITTED] 74725.025
    
    [GRAPHIC] [TIFF OMITTED] 74725.026
    
    [GRAPHIC] [TIFF OMITTED] 74725.027
    
    Chairman Quayle. Thank you, Chief Critchley.
    I now recognize Mr. O'Connor for his testimony.

                STATEMENT OF MR. KEVIN O'CONNOR,

             ASSISTANT TO THE GENERAL PRESIDENT FOR

    GOVERNMENTAL AFFAIRS, INTERNATIONAL ASSOCIATION OF FIRE 
                            FIGHTERS

    Mr. O'Connor. Thank you, Chairman Quayle, Ranking Member 
Edwards, Representative Bonamici. I am Kevin O'Connor 
representing the International Association of Firefighters, 
whose 300,000 members proudly serve communities in each of the 
Nation's 435 Congressional districts.
    I am especially pleased to be before this Subcommittee 
because I am currently a constituent of Member John Sarbanes 
and after the November elections will be a very proud new 
constituent of the Ranking Member.
    As firefighters have taken on additional responsibilities 
and expanded our capabilities to meet total response needs of 
our communities, so too must the Fire Administration evolve to 
meet the needs of the 21st century fire service. The days of 
firefighters whose primary function was to simply put out fires 
are long gone. Today's firefighters are well-educated, highly 
trained and skilled, all-purpose emergency responders with 
broad responsibilities ranging from EMS, hazmat response, WMD 
and all-hazards response. Most significantly, your firefighters 
are always the first boots on the ground for any manmade or 
natural disaster.
    The prevalence of fire-based EMS delivery systems requires 
the agency to fully integrate EMS training and preparedness 
into its mission. Although USFA is beginning to move in that 
direction, we want to ensure that EMS be afforded its 
appropriate recognition and attention. While the Fire 
Administration continues to integrate all-hazards training and 
preparedness into all of its programs, it must work to change 
the perception that its primary focus is simply on fire.
    One way that perception problem may be solved is to simply 
change the agency's name to reflect its current mission. The 
U.S. Fire, EMS and All-Hazards Administration or similar 
branding would better describe the expanded role of both the 
modern fire service and the agency.
    After the well-publicized problems stemming from Hurricane 
Katrina, Congress rightly took steps to revamp our Nation's 
approach to emergency response. USFA is currently working to 
develop a better means of coordinating existing state and local 
response for disaster deployment. Currently, the agency is 
considering organizing firefighters and other responders to 
support FEMA disaster response and recovery efforts. The IAFF 
fully supports this endeavor, but we must ensure that 
firefighters are appropriately utilized and deployed during any 
disaster.
    During the delayed response to Hurricane Katrina, FEMA 
called up 1,000 firefighters to serve as community relations 
officers, tasking them with the distribution of flyers instead 
of deploying these well-trained responders to the front line 
where their presence was desperately needed. Frankly, it was a 
tragic waste of resources and capabilities.
    The IAFF hopes to partner with USFA and FEMA to ensure that 
personnel resources are properly identified and utilized during 
emergencies. The best way to accomplish that goal would be to 
establish a national firefighter credentialing system. In the 
past, too, well-meaning firefighters have self-dispatched to an 
emergency, but many of those firefighters have lacked the 
requisite training and experience to operate effectively. A 
national credentialing system will alleviate that uncertainty 
by typing responders and departments based on training and 
certification levels. This will enable incident commanders to 
make the most appropriate use of their most valuable resource--
personnel. The establishment of a credentialing system has been 
in development at FEMA since 2006. There is simply no excuse 
for this long delay. The project needs to be completed.
    Most importantly, USFA serves as the voice of the fire 
service within Federal Government. Unfortunately, the Fire 
Administration's ability to represent the fire service at the 
federal level is compromised by a lack of adequate funding. 
USFA has long struggled to function with insufficient and sadly 
diminishing resources. The current authorization level of $76.5 
million must be maintained for the agency to carry out its 
mission, and I urge this Subcommittee to retain or even 
increase the current authorization level. Rest assured, we will 
be making the same case to your colleagues in appropriations.
    Lastly, I would like to address a prior Congressional 
recommendation that in our view, USFA has been slow to 
implement. The U.S. Fire Academy has successfully furthered 
professional development of fire service through training and 
education. Today the academy offers distant learning training 
locally sponsored centers throughout the states, to expand its 
ability to serve individuals who are unable to attend training 
at Emmitsburg. To expand the academy's reach, Congress 
authorized USFA to partner with nationally recognized 
organizations that have established fire service training 
programs to deliver a portion of the agency's training. 
Organizations such as the IAFF provide excellent partners to 
conduct this real-world training that few institutions can 
match. Through such partnerships, USFA could easily and cost-
effectively increase the number of firefighters that benefit 
from its training programs. We look forward to working with 
Chief Mitchell in his role and hopefully implementing this 
program.
    This concludes my testimony. I thank you for the 
opportunity to speak before you today, and like my colleagues, 
I am ready to answer any questions.
    [The prepared statement of Mr. O'Connor follows:]
    [GRAPHIC] [TIFF OMITTED] 74725.029
    
    [GRAPHIC] [TIFF OMITTED] 74725.030
    
    [GRAPHIC] [TIFF OMITTED] 74725.031
    
    [GRAPHIC] [TIFF OMITTED] 74725.032
    
    [GRAPHIC] [TIFF OMITTED] 74725.033
    
    Chairman Quayle. Thank you, Mr. O'Connor, and I want to 
thank all of the witnesses for their testimony and also for 
being right at the five minute button. That is a rarity on 
Capitol Hill, and I thank you for your punctuality.Now I want 
to remind Members that Committee rules limit questioning to 
five minutes. The Chair at this point will open the round of 
questions. I recognize myself for five minutes.
    Chief Mitchell, as we are examining the USFA, we are 
interested in what changes should be made to the USFA's 
authorities. Currently, it serves as the support agency for the 
U.S. Forest Service and the Federal Emergency Management 
Agency, Emergency Support Function #4, firefighting annex. 
These responsibilities are assigned at the discretion of the 
Homeland Security Secretary. Some in the fire service community 
have recommended that the USFA should be elevated to co-leader 
with the U.S. Forest Service to ensure a more effective state 
and local response. Would the USFA be able to handle this 
responsibility, and to your knowledge, has the Department 
explored the possibility of making this change with the Forest 
Service.
    Chief Mitchell. Thank you, Mr. Chairman. Yes. The short 
answer is yes, we have explored it. In fact, we have come up 
with a couple of initiatives that would allow us to participate 
more in response. We are meeting with FEMA response leadership 
at this time, this very week, and also meeting with the U.S. 
Forest Service to discuss how we would coordinate being dual 
coordinators within ESF 4. We have a lot of ideas on how we 
could do that and partnering with the other fire service non-
governmental organizations and state and regional agencies to 
provide some level of coordination to disaster response across 
the country through some of the existing mutual aid agreements 
and contracts, and so there was a point where we wondered if we 
had that authority. We have talked with our legal folks and we 
do find that the FEMA Administrator has the authority to write 
us into that program. And so right now we are just trying to 
coordinate that effort with the Forest Service and do it in a 
way that is acceptable to all the parties involved.
    Chairman Quayle. Okay. Great. Thank you.
    Chief Critchley, how would having the USFA serve as the co-
leader to the U.S. Forest Service under ESF 4 strengthen and 
complement the fire service response to all hazards?
    Chief Critchley. At this time, we are learning the same 
incident management type that the Forest Service uses yet we 
have some specific entities, some specific duties that we do in 
an event that the Forest Service model doesn't address in the 
hazmat, the technical rescue during a big fire scene. I think 
this just would build up the strength of it if we are both part 
of that decision-making instead of just one and then coming to 
a support agency. If we are both there with our voices saying 
this is the best way to go, I think that is a much better end 
product than having to wait for support.
    Chairman Quayle. Okay. Thank you.
    Chief Mitchell, we are always interested in leveraging R&D 
underway in different agencies. There is ongoing research at 
DHS S&T Directorate and NIST Fire Safety Research is looking at 
fire-retardant materials to protect firefighters. How does the 
USFA coordinate its research with NIST along with other fire 
safety research going on with the Departments of Homeland 
Security and Defense?
    Chief Mitchell. We meet with them regularly, both DHS S&T. 
We just had a meeting, an onsite meeting, last week at NIST. We 
partner with NFPA. We partner with the Underwriters 
Laboratories. We are talking right now, or recently, with Oak 
Ridge Laboratories about new smoke detector technologies. 
Essentially, we continually have communications through our 
team that works on technology and research at the USFA and just 
stay in constant communication. We gather input from our fire 
service stakeholders and the other non-governmental 
organizations across the country in the fire service as to 
needs. We communicate those with the technology agencies and 
laboratories and partners and try to see that our needs are 
being met by the research community.
    Chairman Quayle. Have you seen--have you experienced any 
sort of problems with actually getting the level of cooperation 
between the different agencies? You know, sometimes we hear 
that it is hard to get information from one agency if you are 
working with another agency.
    Chief Mitchell. I have only recently come in to the Federal 
Government and so the level of bureaucracy--is that the right 
word?
    Chairman Quayle. You can say it. Go ahead.
    Chief Mitchell. That you maybe need to go through to go 
from one step to the next is a little different than local 
government. But no, the people engaged are very cooperative. I 
think, though, that sometimes the process and our level of 
resource that supports us being engaged in the research process 
probably limits our ability to move forward faster. But we work 
with them to the extent that we can.
    Chairman Quayle. Okay. Thank you very much.
    I now recognize the Ranking Member, Ms. Edwards, for five 
minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to our 
witnesses.
    My staff actually just recently had a chance to spend a day 
at our fire training academy, and I have to say, for the work 
of firefighters and our chiefs, Chief Critchley, you know, on 
the ground, that is not for the faint of heart. So I really 
appreciate what you do for all of communities.
    In your testimony, Mr. O'Connor and Chief Critchley, both 
of you--and we will allow you to answer this question out of 
respect for Administrator Mitchell, and I will share you with. 
You both expressed concerns over the Administration's current 
level of funding and you describe the impact this declining 
budget is having on the Fire Administration's activities, and 
specifically, Chief Critchley, you mentioned that the Fire 
Administration won't be able to complete modernization of the 
Fire Incident Reporting System, the National Fire Incident 
Reporting System, and that a number of courses offered at the 
Fire Academy will be eliminated and new courses will not be 
developed. I wonder if you can comment on the ability of the 
Fire Administration to fulfill its mission, especially as you 
know what the needs are, both for the Western States but at the 
most local level, and I wonder if the two of you could comment 
on what these budget constraints mean and what level of 
authorized funding do you think ought to be included in a 
reauthorizing bill as we move forward through Congress? Chief?
    Chief Critchley. So to the first point about the losses 
that we have seen in the U.S. Fire Administration, specifically 
at the National Fire Academy, we have seen a reduction in the 
number of courses, wide-ranging courses from hazardous material 
to prevention to deployment for command and control. Lots of 
those have been reduced. We have seen a wonderful program 
called the Trade Program that is also looking at a reduction in 
funding. The Trade Program is where I met Fire Chief Garrett 
Olson for the very first time as training officers, which 
builds a network across the Nation about doing the right thing 
with our training. I am worried that that may be lost. The 
Executive Officer program, what an outstanding way to educate a 
continuum of leaders in the fire service so that we are 
thinking forward instead of staying the way we are because we 
are all going to have to change. Those are issues that I would 
be concerned about with being cut.
    On the modernization of the NFIRS, right now we get 
reports, lots of reports for how it relates to the NFPA data, 
wonderful things for us to do, but I am wondering if there is a 
way that we can do real-time numbers and we can get to finish 
this so that we can have numbers--that we can compare our 
organization to--for example, we have got L.A. Fire Department 
and then Fire Department New York having questions about what 
their times mean. Well, if we had a data spot that we could get 
real-time numbers from, I believe that it is an incredible 
value.
    Ms. Edwards. So what you are sharing with us is that a 
reduction in the budget has--because it is a fairly lean 
agency--has real impact locally.
    Mr. O'Connor, do you have a comment about that?
    Mr. O'Connor. Yeah, just to piggyback on what the Chief 
referenced, we all recognize that the fire service is 
inherently a local operation but the Chairman referenced the 
landmark ``America Burning'' in 1973, and frankly, Congress 
recognized and the Federal Government that there needs to be an 
agency that is the voice of the fire service, and you described 
it as being very lean, and that is correct. Some of my 
testimony was predicated on EMS, other issues such as 
credentialing. I don't offer that as a criticism. With the 
limited resources that are consistently diminishing, USFA is 
having a hard time doing its job and the simple reality is, the 
authorization level is great, it needs to be at least at the 
current level, but it certainly needs to be appropriated. This 
is a lean agency. There is not a lot of fat there. And it is 
supporting over 300,000 professional firefighters and probably 
twice and a half as many volunteers across the country in every 
community, and we just really encourage Congress to recognize 
that this is an efficient use of federal funds that is 
protecting communities and that really in our view is 
government's most basic responsibility.
    Ms. Edwards. And Administrator Mitchell, if I could just 
ask you, in terms of what firefighters need and departments 
need all across the country, some of the things, credentialing 
and others, you would like the capacity to be able to deliver 
those things. Is that correct?
    Chief Mitchell. Yes. I would like to expand our capacity 
and really, since I have been at the Fire Administration, I 
have found that we have excellent people working there. They 
have a plan that is outstanding. We do not really have the 
resources to carry all elements through expeditiously so the 
reductions have limited and retarded our ability to move 
forward with some of the newer programs that we need to move 
forward.
    Ms. Edwards. Thank you, and I yield.
    Chairman Quayle. I now recognize the Chairman of the full 
Committee, the gentleman from Texas, Mr. Hall, for five 
minutes.
    Chairman Hall. Mr. Chairman, I do thank you, and I thank 
this panel. You have such an important job and it is important 
to the smallest group of firefighters to the big cities. Thank 
you for your testimony and giving your time to prepare and the 
services you render really ought to be appreciated by this 
Committee, and I think we do.
    Along the lines of Ms. Edwards' questions, she and I kind 
of work as a team a lot of times, and I want to enlarge a 
little bit on her questions and some of the answers that you 
have given.
    My dad was a firefighter in the smallest county in the 
State of Texas. Two hundred and fifty-four counties, they were 
the smallest, and they had a fire department, one truck. The 
siren would go off at night and everybody could hear it. I 
could hear it too and it would wake me up. My dad would get up 
and run all the way to the fire station because they wanted to 
be there before lightning bridges got there because the first 
one there got to drive the one truck they had, and it was 
always a race for them, and when it was all over and they would 
come home, I would ask Dad, well, how did it go. He said well, 
we saved a lot was usually his answer.
    It means a lot, and I have to rely on you. I guess, 
Administrator Mitchell, I will ask you, how does the United 
States Fire Administration, how do you support the rural 
departments? I have a lot of them in my 4th Congressional 
District there. How do you support those? I guess the 
fundamental difference is in the nature of the rural fire 
problems compared to the U.S. fire problem as a whole, and I 
say this. It is sad that we have to have a 9/11 to really get 
people to appreciate you all the way they should. A lot of 
communities are protected by volunteer fire departments and 
face very unique challenges--agricultural fires, fires on 
wildland and urban interface. Does the USFA offer training 
especially tailored to volunteer firefighters and what type of 
resources have you developed to assist fire departments 
operating in rural communities? I guess, do you want me to 
repeat that, Mr. Mitchell?
    Chief Mitchell. I think I get it. Thank you, Congressman.
    Chairman Hall. I didn't think you would want me to repeat 
it.
    Chief Mitchell. Okay. Yes, we have courses specifically 
tailored for volunteers. Largely what we have are offerings of 
those courses. We work with the volunteers to try to make them 
more available, recognizing the difficulties in having the time 
to get additional training, so we work more to expand the 
online offerings and the in-the-field courses that go out 
through the states, state fire training. Much of the basic 
training is done locally and so those are handled outside. What 
we do try to do or do on a larger basis is a lot of that 
online.
    With respect to rural areas and wildland, we have courses 
in development right now for wildland-urban interface fires to 
protect those structures close to the wildland, and we have 
some wildland courses that are being offered through the 
National Wildland Coordinating Group. So I guess the overall 
answer is that we are reaching out trying to make the courses 
more available to the volunteers and working with the volunteer 
associations also to help that to happen.
    Chairman Hall. I thank you for that, and I think it is very 
important.
    I yield back my time, Mr. Chairman.
    Chairman Quayle. Thank you very much, Mr. Chairman.
    And I now recognize Ms. Bonamici for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman. I want to 
join the other members of the Committee in thanking you all for 
the work that you do to keep our communities safe.
    Administrator Mitchell, in your testimony, you talked about 
the indirect costs of fire, and estimate that according to your 
testimony here, the indirect costs, which include things like 
lost business, medical expenses, temporary lodging, 
psychological damage maybe as much as eight to ten times higher 
than the direct costs of fire, and that just emphasizes the 
importance of training and education and prevention. And I know 
that right now many communities, not only in my district and 
State, but across this country are struggling and don't have 
the resources they need at the local level to do all the work 
that they need to do, and so what I would like you to do, maybe 
Dr. Hall, because you mentioned this in your testimony, can you 
talk about the progress that has been made with the areas that 
are targeted, for example, with the Assistance to Firefighters 
and the SAFER grant programs? Can you comment about how these 
programs have really contributed to addressing the challenges 
that are faced by our local fire service districts?
    Dr. Hall. Yes, I would be glad to. Thank you. We have 
conducted three needs assessment surveys of the fire service, 
and the second and third we accompanied with a matching 
analysis looking at how the needs had been affected by the 
grants that people have gotten in the years before the survey 
was conducted. What we found was that the particular types of 
needs that were especially targeted by the AFG and SAFER grants 
tended to show the biggest improvements over the ten years 
between the first and the last needs assesment survey. These 
improvements were seen in all sizes of communities from the big 
cities to the small rural volunteer fire department areas that 
Mr. Hall was talking about. So it was--what we got was, the 
programs are--the grants are very well targeted, they are very 
effective. The only limit on the degree of improvement and need 
that we have seen is that there is limited funding. They have 
accomplished as much as could have been expected given the 
amounts of the grants that were out there. And so to us, the 
roadmap was fairly clear. If you want to get these needs really 
far down, you need to, as the other speakers have said, 
maintain the funding and, if possible, increase the funding for 
these grants.
    Now, another thing that we looked at in the grants--in the 
needs assessment--was training do they have the training, do 
they have the certification for various different tasks. And 
here again, we saw improvements in need but still very great 
needs, and this ties back to the outreach programs that are 
being conducted from the academy.
    Ms. Bonamici. Thank you.
    Now, in my State of Oregon, we pride ourselves in 
sustainability and green buildings, so when somebody mentioned 
the rooftop covered with photovoltaic cells, that sounded like 
back home, so would you talk a little bit about the work that 
is being done to make sure that new methods and tactics are 
developed for fighting fires in green buildings?
    Dr. Hall. I think that was my statement that you are 
reacting to Congresswoman. Thank you.
    There is an active project at NFPA that is in cooperation 
with the Fire Administration and with other key entities to try 
to develop best practices, how should you adjust your way of 
fighting a fire in order to identify that this particular 
hazard is there when you show up and then to decide how you 
avoid shock hazards and other sorts of things in the course of 
fighting the fire. It is not only going very well in terms of 
producing results but I think it is something of a role model 
project for how new hazards can be incorporated into the best 
practices of the fire service in general.
    Ms. Bonamici. Thank you very much, and I yield back. Thank 
you, Mr. Chairman.
    Chairman Quayle. Thank you.
    I now recognize the gentleman from Illinois, Mr. Lipinski, 
for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I thank all the witnesses for their testimony, obviously 
very critical issue here we are talking about, about fire 
safety.
    In the written testimony of both Mr. O'Connor and Mr. 
Mitchell, you both highlight one area in which you think the 
USFA can do more as in training, and Mr. O'Connor, you 
specifically mentioned that USFA has been slow to implement 
Congress's recommendations that the USFA partner with 
organizations that have established fire training programs. So 
I want to ask Mr. O'Connor, can you tell me--tell us more about 
IAFF training programs and how they can help the U.S. Fire 
Academy expand the reach of its classes.
    Mr. O'Connor. Well, I think that in all fairness to the 
academy, part of the issue is resources as we have talked 
previously, but in our view, the National Fire Academy is a 
wonderful resource. For people that are actually able to be in 
residence there and actually travel to Emmitsburg, it is 
wonderful training, and the outreach of the state training 
academies has been magnificent. But I think this Committee and 
Congress in the previous authorization recognized that there 
are other opportunities, and while we are very proud of the 
IAFF, I wouldn't limit it to simply our organization. There are 
a lot of folks throughout the fire service organizations 
representing firefighters of all types that have very vibrant 
training programs.
    For example, the one I know best, obviously, is the IAFF. 
We have several grant programs funded through the Department of 
Energy, Department of Homeland Security and Department of 
Transportation that are predicated on peer-to-peer training. 
Essentially, we have training programs that are certified to 
meet the standards and the approval of the Fire Academy and 
other sources through the fire service but they are delivered 
very economically on the local level, meaning if there is a 
need for a training course in hypothetically a town in Oregon, 
we would find instructors who were also trained and certified 
in Portland. Their day job may be being a firefighter in 
Portland or Medford or somewhere else but they would be 
dispatched to this area that needs training and basically only 
be compensated for the period that they are actually training. 
They are spread geographically across the Nation so it is a 
very efficient and economical way of delivering the training. 
That cadre of instructors currently exists, and if we were 
contracted or through some mechanism be allowed that 
opportunity to put these programs in the field, and again, I 
don't limit this simply to the IAFF but it is certainly a very 
good model of training.
    It is especially effective because it is not just an 
academic setting, it is an actual firefighter who may be an 
expert in hazmat response training other firefighters in that 
discipline, so there is that natural respect and camaraderie. 
And it is just a very good way of expanding training profiles 
and getting a curriculum in the field that you avoid travel 
costs and residency and things of that nature.
    Mr. Lipinski. Thank you.
    I want to turn the rest of my time over to the issue of 
fire grants. In 2009 and again in 2011, I helped introduce 
legislation to reauthorize the fire grant program. 
Unfortunately, neither of these initiatives have been passed 
into law. The reauthorization legislation would make these 
grants more accessible to fire departments across the country 
and bring stability to a crucial source of funds for local fire 
authorities.
    Dr. Hall, in your testimony, you speak to the importance of 
these grant programs and the effects they have had in our 
communities. Can you comment on the importance of reauthorizing 
these programs and your thoughts on proposed changes in the 
reauthorizing language?
    Dr. Hall. Thank you, Congressman. Yes, we have considerable 
analysis, which was done in association with our needs 
assessment surveys, to demonstrate the good targeting and the 
effectiveness and the cost-effectiveness of the grants programs 
in all kinds of different resource areas. We have made the 
results of those studies available to every Member of Congress 
and their staff and would be happy to discuss these things in 
detail at your discretion.
    I do not honestly have any suggestions or thoughts on the 
reauthorizing language. I know our Washington, D.C., office 
would be more than happy to discuss that kind of detail with 
any of you and your staffs as you go forward.
    Mr. Lipinski. I thank you. I appreciate that and 
hopefully--I certainly will continue to take advantage of that 
opportunity and I hope my colleagues do also, and with that, I 
will yield back the remainder of my time.
    Chairman Quayle. Thank you, Mr. Lipinski.
    I am now going to open it up to a second round for those 
who would like to ask additional questions. I now recognize 
myself for five minutes.
    There has been a lot of discussion about resources, and I 
understand that over the course of a number of different years 
that the authorization level has been up to $70 million for the 
USFA and then the appropriations actually came in much lower 
than that, and I think in the 2013 House funding bill basically 
it provides $42.46 million, which is right about the same level 
that the request from the President in his budget. I know that 
that is not the level that you would like, but I do think that 
this hearing has been very informative to see what the 
priorities are of the USFA and how we can support your 
endeavors in very tough budgetary times. I think that providing 
an authorization level that is much higher than really we can 
afford, I think is a little bit irresponsible, but I do want to 
continue to go down and see what priorities and what we can do 
to make sure that we are giving the support that is necessary 
even though we might not be getting to the levels that you 
would like. So I do appreciate everybody's testimony.
    I want to go to Chief Critchley. Chief Mitchell was talking 
about how wildfires are becoming a more significant threat. As 
you know, Arizona is currently battling four wildfires in the 
central and eastern part of the state, and we had the Wallow 
Fire last year and we continue to see this. Can you kind of 
give me some insight on why are wildfires becoming a more 
significant threat? Is it forest management policy such as 
ensuring that we are keeping fuel loads low and trees thinned 
to a healthy level or patterns of development because people 
are moving closer to forests, or is it a combination of both?
    Chief Critchley. Thank you. I would say it is a combination 
of both. I am not as well versed on the Fuels Management 
Program that they have but I can promise you that as we grow as 
a community, we are reaching out into areas that were never 
designed for fire trucks to get in to take care of. So as we 
expand the size of our cities or the movement out into the 
urban interface area, we just increase the number of buildings 
that are going to be hurt during a wildland fire. So I believe 
it is both but primarily it is the way that we are managing our 
growth.
    Chairman Quayle. Okay. Thanks.
    And Chief Mitchell, do you have any thoughts on why they 
are becoming more significant?
    Chief Mitchell. Again, I am not as familiar with the fuel 
management part of it, although, you know, we are engaged with 
other agencies now in studying fuel management and how fuel 
management versus bioresponse and prevention all interact. But 
coming up in the fire service in southern California, I know a 
large part of the problem was based upon more building and 
living in the interface zones, the lack of fire-resistive 
construction in those areas, and some of the other preventative 
and mitigation measures that could and should be enacted to 
prevent loss.
    Chairman Quayle. Okay. Thank you.
    And Dr. Hall, it has been described that one of USFA's 
training challenges is reaching out to all firefighters across 
the country and increasing online classes and distance 
training. Has the NFPA performed any research to try to 
quantify the impact of training programs and has the NFPA 
specifically measured the effectiveness of remote training?
    Dr. Hall. Thank you, Mr. Chairman. The analysis that we 
have conducted is not at that level of detail. We have results 
that indicate that the training situation for the fire service 
has improved to a limited degree between the first of our needs 
assessment surveys and the more recent survey but we have not 
been in a position to look at specific data about people 
reached or the efficiency of particular methods of delivery.
    Chairman Quayle. Okay. Thank you very much.
    I now recognize the Ranking Member, Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you for 
this second round of questions. I want to go back to the issue 
of credentialing because I recognize that, you know, we have a 
lot of local fire departments. Firefighting is essentially a 
local activity. But we also have a number of circumstances, 
particular in major disasters, where we are calling on, you 
know, one jurisdiction to support another jurisdiction, and for 
me, this is where the question of credentialing comes forward 
because I think it is really important for us to make sure that 
whomever is responding in whatever jurisdiction has the same 
capacities so that they kind of fit right into the program and 
are able to respond appropriately.
    So Mr. O'Connor, can you elaborate on the recommendation 
for credentialing and explain why you think it is important? 
And then if Chief Mitchell could comment on the status because 
I think, Mr. O'Connor, in your testimony you indicated that 
there is some, you know, lagging because it has kind of been in 
the hopper since 2006.
    Mr. O'Connor. Yes. I mean, this was something that was 
brought forth after 9/11 and certainly Katrina, and you have 
actually articulated it very well. I don't think anyone on the 
federal level or even the fire service wants to suggest to 
local communities what their level of fire training should be 
or ought to be. That is up to the local community. We recognize 
that. We don't want to try to intervene with that. However, on 
those larger-scale instances, whether it is flooding in the 
plains, a hurricane coming ashore, a wildfire, whatever the 
incident is, you need an appropriately trained and skilled 
responder to actually handle that type of a crisis, and 
throughout very many fire departments--as you know, I was a 
firefighter, structural firefighter, in Baltimore County. I 
don't have the training in wildland firefighting. So it would 
be useless to have me dispatched to that type of an incident.
    So the point of this is to make sure that incident 
commanders and there is some type of, if you will, 
clearinghouse or databasing that firefighters and departments 
are actually typecast so that you know what training, to what 
level a responder is trained. It simply makes common sense, and 
I think everyone recognize that. I also recognize that this was 
not specifically tasked to the U.S. Fire Administration, to the 
NICC, but it is something that frankly is a responsibility of 
the incident commander and the people responding and it is why 
it is so important that it is followed through.
    Ms. Edwards. Administrator Mitchell, then, if you could 
comment about what the status is and sort of where we are 
moving on that, I mean, if this is something we have been 
considering since 2006, and my recollection is that in the 9/11 
disaster where you had people who understandably departments 
that wanted to respond but in a very unique fire situation you 
could see how making sure that you have got the right people 
responding could be lifesaving.
    Chief Mitchell. Yes. I worked in a very active mutual aid 
system myself for many years, and we do recognize how important 
it is that people are able to work together at the essential 
levels for their own safety and in order to be effective. I 
have been advised that the Fire Administration and the Fire 
Academy did a credentialing review and took input from the fire 
service and made a recommendation internal to FEMA to the NICC. 
I would have to--back in 2005 or 2006. I would have to get back 
to you on what that status is since our recommendation went 
forward.
    Ms. Edwards. That would be extremely helpful, I mean, 
because it is 2012 and, you know, it would seem to me that if a 
recommendation has been made from the experts, then there 
should be some way that that gets expedited for consideration. 
You know, six years is a good way to expedite things. Thank 
you.
    And then lastly, Chief Mitchell, in the authorizing bill, 
there is a requirement for the Secretary of Homeland Security, 
in consultation with the Fire Administration to establish a 
fire service position at the National Operations Center, and I 
have been given to understand that that is not a full-time 
position with full-time status. Can you update us on that 
requirement and how it is being fulfilled by the Fire 
Administration?
    Chief Mitchell. That is correct. It was not approved as 24/
7 in terms of full time, but as a full-time position for a 
person to deal with the transfer of data and information. That 
position has been approved and is presently being advertised 
for, so we are in the process of filling that position.
    Ms. Edwards. And is it important that there be, you know, 
sort of a concerted person designated from the Fire 
Administration representing the fire services at the National 
Operations Center?
    Chief Mitchell. Yes. We believe that would be extremely 
helpful as far as when you say full time, if we are talking 
about around the clock. Given the resource demands, that is 
probably not our most efficient way. If the threat level were 
raised to a point, we would handle it as we do other positions 
at that time and then staff up around the clock based on 
conditions, but on a day-to-day basis, it would be a full-time 
equivalent position.
    Ms. Edwards. Thank you very much, and thanks to all the 
witnesses.
    Chairman Quayle. Thank you, Ms. Edwards.
    I would like to thank all the witnesses for their valuable 
testimony and the Members for their questions. The Members of 
the Subcommittee may have additional questions for the 
witnesses, and we will ask you to respond to these in writing. 
The record will remain open for two weeks for additional 
comments and statements from members.
    The witnesses are excused. Thank you all for coming. This 
hearing is now adjourned.
    [Whereupon, at 11:06 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mr. Ernest Mitchell, Jr.
[GRAPHIC] [TIFF OMITTED] 74725.034

[GRAPHIC] [TIFF OMITTED] 74725.035

[GRAPHIC] [TIFF OMITTED] 74725.036

[GRAPHIC] [TIFF OMITTED] 74725.037

[GRAPHIC] [TIFF OMITTED] 74725.038

[GRAPHIC] [TIFF OMITTED] 74725.039

[GRAPHIC] [TIFF OMITTED] 74725.040

[GRAPHIC] [TIFF OMITTED] 74725.041

[GRAPHIC] [TIFF OMITTED] 74725.042

[GRAPHIC] [TIFF OMITTED] 74725.043

[GRAPHIC] [TIFF OMITTED] 74725.044

[GRAPHIC] [TIFF OMITTED] 74725.045

[GRAPHIC] [TIFF OMITTED] 74725.046

[GRAPHIC] [TIFF OMITTED] 74725.047

[GRAPHIC] [TIFF OMITTED] 74725.048

[GRAPHIC] [TIFF OMITTED] 74725.049

Responses by Dr. John R. Hall, Jr., Division
[GRAPHIC] [TIFF OMITTED] 74725.050

[GRAPHIC] [TIFF OMITTED] 74725.051

Responses by Chief Jim Critchley
[GRAPHIC] [TIFF OMITTED] 74725.052

[GRAPHIC] [TIFF OMITTED] 74725.053

Responses by Mr. Kevin O'Connor
[GRAPHIC] [TIFF OMITTED] 74725.054

[GRAPHIC] [TIFF OMITTED] 74725.055

                                 <all>

</pre></body></html>
